January 4, 2010


INFORMATION SECURITY
Evaluation of GAO’s Information Security Program and
Practices for Fiscal Year 2009

Objectives: Although not obligated by law to comply, GAO has adopted the
requirements of the Federal Information Security Management Act of 2002
(FISMA) to strengthen its information security program and demonstrate its
ongoing commitment to lead by example. GAO’s Office of Inspector General
(OIG) conducted an evaluation to assess (1) the effectiveness of the agency’s
information security policies, procedures, and practices, and (2) agency
compliance with the information security requirements of FISMA and other
federal information security policies, procedures, standards, and guidelines.
(A full report on our evaluation was prepared for GAO internal use only.)
Findings: Overall, the OIG’s evaluation showed that GAO has established an
information security program consistent with the requirements of FISMA,
Office of Management and Budget (OMB) implementing guidance, and
guidance and standards issued by the National Institute of Standards and
Technology (NIST). However, it also found that GAO’s information security
policies and procedures were not always applied and some could be improved
to help ensure that they are consistent with the OMB and NIST guidance. In
particular, the OIG found the following:
•   During fiscal year 2009, GAO greatly increased its systems inventory from
    12 to 35 systems but did not complete all required security processes and
    procedures (such as preparing system security plans) for many of the newly
    added systems.
•   GAO’s incident response and handling procedures investigate security
    events, such as a denial of service attack, but deciding whether to classify
    such events as incidents—and, thus, to consider reporting them to other
    external organizations—needs additional management involvement.
•   GAO has continued to make progress in establishing its privacy program
    and protecting personally identifiable information, but implementing
    additional requirements, such as providing annual privacy awareness
    training, would help further strengthen this program.
Recommendations: This report includes recommendations for GAO to
(1) complete and document required information security processes and
procedures for all systems in the systems inventory, (2) modify the agency’s
incident handling and response procedures to increase Chief Information
Officer involvement in the incident classification process to help ensure that
security events are appropriately classified and reported, and (3) continue
efforts to implement additional requirements for the agency’s privacy program.
In commenting on a draft of the report, GAO concurred with these
recommendations and described actions it is undertaking to address them.




                                                                    GAO/OIG-10-3
